SIGAR
     Mr                                       Special Inspector General for
                                               Afghanistan Reconstruction




                                                         SIGAR 14-85 Audit Report



      Afghan Mobile Strike Force Vehicles: Contractor
      Met Requirements, but Long-Term Operation
      and Maintenance Remain a Concern




                                                                      JULY
                                                                 2014
SIGAR 14-85-AR/Mobile Strike Force Vehicles
                                                     July 2014



SIGAR
                                                     Afghan Mobile Strike Force Vehicles: Contractor Met Requirements,
                                                     but Long-Term Operation and Maintenance Remain a Concern


                                                      SIGAR 14-85 Audit Report
Special Inspector General for
                                                      WHAT SIGAR FOUND
Afghanistan Reconstruction
                                                      Textron produced 634 Mobile Strike Force Vehicles (MSFVs) and provided
WHAT SIGAR REVIEWED                                   initial operator and maintenance training to the Afghan Mobile Strike
                                                      Force (MSF) at the Armor Branch School in Kabul, in accordance with
To improve the Afghan National Army’s (ANA)           contract requirements. SIGAR found that all of these vehicles were
effectiveness, the NATO Training Mission-             properly documented and transferred to the Department of Defense
Afghanistan (NTM-A)/Combined Security                 (DOD). In addition, as of March 25, 2014, DOD had transferred 419
Transition Command-Afghanistan (CSTC-A)               MSFVs to the Afghan National Army (ANA) and could account for the
decided that the ANA should have a Mobile             remaining 215 vehicles, 204 of which will eventually be transferred to the
Strike Force (MSF) to provide a mechanized            ANA and 11 of which DOD will retain as test vehicles. Textron also met
infantry force that is rapidly deployable with        other contract requirements such as receiving and inspecting MSFVs
integral firepower, protection, and mobility          upon arrival in Afghanistan; providing initial spare parts, tools, equipment
support. To meet this requirement, the Army           and weapons installation; and maintaining training vehicles.
Contracting Command-Warren (ACC-WRN)                  Textron, however, was not always able to provide Mobile Strike Force
awarded two contracts to Textron Marine &             (MSF) field training and maintenance services for which it was being paid.
Land Systems (Textron), a U.S. firm.                  This was primarily due to the limited number of International Security
Obligations on these contracts have totaled           Assistance Force Joint Command personnel assigned to provide security
$661.3 million for 634 Mobile Strike Force            as called for under the contract. In addition, although all four deployed
Vehicles (MSFV), spare parts, maintenance,            kandaks received their 60-day initial supply of vehicle spare parts, only
and training. The MSF consists of two                 one MSF kandak assigned to the 2nd Brigade received any spare parts
brigades—the 1st Brigade in Kabul containing          from the comprehensive 1-year supply maintained at the brigade level.
four kandaks—an ANA unit similar in size to a         Due to shortfalls in contract funding, the Army Contracting Command-
U.S. battalion—and 2nd Brigade in Kandahar            Warren (ACC-WRN) delayed ordering these parts--including replacement
containing three kandaks.                             engines and drive shafts--which take about a year to manufacture and
                                                      deliver. As a result, for example, another MSF kandak assigned to the 2nd
The objectives of this audit were to (1)              Brigade had no spare parts beyond the initial 60-day supply for the 9
determine the extent to which Textron has             months that it received coalition and contractor support. Coalition
met its contractual obligations to produce,           advisors noted that the absence of spare parts resulted in a steady
deliver, train, and provide field support for         deterioration of the MSF kandak’s ability to conduct missions. We
the ANA MSFVs; (2) evaluate the                       requested information on MSFV operational readiness rates, but this
effectiveness of U.S. government oversight in         information is not maintained by the brigades, kandaks, or NTM-A.
the procurement, delivery, training, and
maintenance of MSFVs for the ANA; and                 SIGAR also found that DOD exercised limited oversight of Textron
(3) determine the extent to which the ANA             activities at MSF brigades and kandaks. ACC-WRN assigned a contracting
has the capacity to operate and maintain its          officer’s representative (COR) to oversee and monitor Textron’s
current and planned fleet of MSFVs.                   performance in Afghanistan. However, the COR was not always physically
                                                      located in Afghanistan, which limited the COR’s ability to visit MSF
WHAT SIGAR RECOMMENDS                                 brigades and kandaks to observe Textron’s work. The Product Manager
                                                      for Allied Tactical Vehicles—a U.S. Army group of acquisition personnel
To ensure that Textron is adequately                  responsible for the life cycle management of tactical vehicle fleets—
supported in its implementation of the MSFV           assigned associates to help the COR oversee and monitor Textron’s
contracts and that appropriate contract               performance. The associate in Afghanistan arrived in Kabul in January
oversight is provided, SIGAR recommends               2014, but, as of April 2014, had been unable to reach sites outside of
that the Executive Director, ACC-WRN, and             Kabul. For example, the associate attempted to travel to the 2nd MSF
the Commander, International Security                 Brigade in Kandahar on multiple occasions, but the flights were always
Assistance Force Joint Command, (1) review            cancelled for unknown reasons. According to NATO Training Mission-


       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
Gunner, Turret, and Ambulance Variants of the Mobile Strike Force Vehicle
Source: NATO Training Mission-Afghanistan


Afghanistan (NTM-A) officials, oversight personnel rarely conducted
                                                                               the requirements for contractor support
site inspections beyond Kabul, even though kandaks are deployed to
                                                                               at the MSF brigades and kandaks, taking
other provinces such as Zabul and Helmand. On April 22, 2014, ACC-
                                                                               into account the level of security support
WRN reported that a COR was assigned to Kabul. Although this
                                                                               available, and modify the contract to
provides for oversight of activities in Kabul, it does not ensure that
                                                                               reflect realistic capabilities for oversight,
someone will provide oversight of Textron’s activities at MSF
                                                                               and determine which actions are needed
brigades and kandaks outside of Kabul.
                                                                               to conduct proper oversight of
Although the ANA has received the majority of its MSFVs, the ANA’s             maintenance and training; and (2) assign
ability to independently operate and maintain them has been                    oversight responsibilities to government
affected by training and spare parts problems. Each initial                    personnel working with Textron at the
crewmember receives 8 weeks of basic operator MSFV training at                 brigades and kandaks and have them
the Armor Branch School in Kabul, but only in one of the three                 report to the contracting officer’s
positions—driver, gunner, or vehicle commander. As a result, if for            representative.
any reason an MSFV loses a crewmember, the vehicle may not
                                                                               To improve the long-term sustainability of
operate at its full potential until that crewmember is replaced.
                                                                               MSF operations, SIGAR recommends that
Coalition advisors noted that replacement crewmembers are
                                                                               the Commanding General, NTM-A,
normally selected from field units and come to the force without any
                                                                               (3) work with the ANA to provide post-
MSFV experience. While MSF brigades and kandaks located near
                                                                               Armor Branch School operator training.
Kabul can send replacements to the Armor Branch School, it is less
feasible for those outside of Kabul to do so. Coalition advisors at the        In their comments, both ACC-WRN and
3rd MSF Kandak in Kandahar stated that getting inexperienced                   CSTC-A concurred with recommendations
replacements has lowered mission capable rates for the kandak. As              one and two. NTM-A did not comment on
a result, the advisors created a training program to address the               recommendation one and did not concur
issue, but other kandaks do not have a similar program.                        with recommendation two, stating that it
                                                                               could not justify permanently assigning
Lastly, difficulties in distributing spare parts using the ANA logistics
                                                                               DOD personnel to the MSF brigade and
system raise concerns about the ANA’s ability to sustain MSFVs. As
                                                                               kandak levels where, for example, at the
part of its contract with ACC-WRN, Textron organizes and inventories
                                                                               kandak level there are as few as three to
MSFV spare parts arriving in Afghanistan before they are sent to the
                                                                               five contractor personnel. Instead, NTM-A
ANA. Textron assists the ANA in sending parts to the two MSF
                                                                               stated that government personnel
brigades, which in turn are responsible for distributing the parts to
                                                                               located in Kabul could travel to the sites
their respective kandaks. The continued drawdown of coalition
                                                                               to provide oversight. However, as
personnel in Afghanistan means that neither coalition forces nor
                                                                               SIGAR’s draft report noted, government
Textron will have the resources to continue to provide the level of
                                                                               personnel made multiple attempts to
logistics support services the MSF has relied on to date. Instead, the
                                                                               travel to these locations but were unable
MSF will rely on the ANA logistics system for ordering and receiving
                                                                               to do so. SIGAR therefore maintains that
spare parts, which SIGAR and other oversight agencies have
                                                                               the recommendation is valid. NTM-A
previously reported on as having deficiencies. For example, SIGAR
                                                                               concurred with recommendation three.
reported in October 2013 on the ANA’s limited ability to manage
vehicle spare parts.



For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 21, 2014


The Honorable Charles T. Hagel
Secretary of Defense

General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Joseph Anderson
Commander, International Security Assistance Force
   Joint Command

Major General Kevin R. Wendel
Commanding General, Combined Security Transition Command-Afghanistan
  Ministerial Advisory Group

Brigadier General Simon C. Hetherington (Canada)
Commander, NATO Training Mission–Afghanistan

Mr. Kenneth P. Bousquet
Executive Director, Army Contracting Command-Warren


This report discusses the results of SIGAR’s audit to determine if Textron Marine & Land
Systems (Textron) met its contractual obligations to produce, deliver, and provide field support
for the Afghan National Army (ANA) Mobile Strike Force Vehicles (MSFV), and the steps the
Department of Defense (DOD) has taken to oversee this effort. The report also discusses the
extent to which the ANA has the capacity to operate and maintain its current and planned fleet
of MSFVs. SIGAR recommends that the Executive Director, Army Contacting Command-Warren
(ACC-WRN), and the Commander, International Security Assistance Force Joint Command,
(1) review the requirements for contractor support at the MSF brigades and kandaks, taking
into account the level of security support available, and modify the contract to reflect the
realistic capabilities for oversight, and determine which actions are needed to conduct proper
oversight of maintenance and training; and (2) assign oversight responsibilities to government
personnel working with Textron at brigades and kandaks and have them report to the
contracting officer’s representative. The report also recommends that the Commanding
General, NATO Training Mission-Afghanistan (NTM-A), (3) work with the ANA to provide post-
Armor Branch School operator training.
We received written comments on a draft of this report from Army Materiel Command, which
included comments from ACC-WRN. We also received written comments from U.S. Forces-
Afghanistan, which included comments from the Combined Security Transition Command-
Afghanistan (CSTC-A) and NTM-A. ACC-WRN concurred with recommendations one and two.
CSTC-A also concurred with recommendations one and two. NTM-A did not comment on
recommendation one and did not concur with recommendation two, stating that it could not
justify permanently assigning DOD personnel to the MSF brigade and kandak levels where, for
example, at the kandak level there are as few as three to five contractor personnel. Instead,
NTM-A stated that government personnel located in Kabul could travel to the sites to provide
oversight. However, as our draft report noted, government personnel made multiple attempts
to travel to these locations but were unable to do so due to flight cancellations. Therefore, we
maintain that the recommendation is valid. NTM-A concurred with recommendation three.
Army Materiel Command’s letter with comments from ACC-WRN and U.S. Forces–Afghanistan’s
letter with comments from CSTC-A and NTM-A, along with our responses, have been
reproduced in appendices II and III, respectively. The Product Manager for Allied Tactical
Vehicles provided technical comments which we incorporated in the report, as appropriate.
SIGAR conducted this work under the authority of Public Law No. 110‐181, as amended, and
the Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 2 
Textron Met Vehicle Delivery and Initial Training Requirements, but Limited Security Support and Spare Parts
Hindered Its Ability to Conduct Field Maintenance and Training .............................................................................. 6 

DOD Can Account for All MSFVs, but Its Oversight of Textron’s Support to Fielded MSFVs Is Limited .................. 8 
ANA’s Capacity to Independently Operate and Maintain the Mobile Strike Force Vehicles Is Affected by a Lack
of Training and Problems with Obtaining Spare Parts ............................................................................................... 9 

Conclusion.................................................................................................................................................................. 11 
Recommendations .................................................................................................................................................... 12 

Agency Comments ..................................................................................................................................................... 12 
Appendix I - Scope and Methodology ....................................................................................................................... 14 
Appendix II - Comments from Army Materiel Command.......................................................................................... 16 
Appendix III - Comments from U.S. Forces–Afghanistan ......................................................................................... 20 
Appendix IV - Acknowledgments ............................................................................................................................... 25 


TABLES

Table 1 - Textron Contracts as of March 17, 2014 ................................................................................................... 3 


FIGURES

Figure 1 - MSF Organization and Deployment Status as of April 2014 .................................................................... 5 


PHOTOS

Photo 1 - Gunner, Turret, and Ambulance Variants of the MSFV.............................................................................. 2 




SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                                                                                           Page i
ABBREVIATIONS

      ACC-WRN               Army Contracting Command-Warren
      ANA                   Afghan National Army
      COR                   Contracting Officer’s Representative

      CSTC-A                Combined Security Transition Command–Afghanistan
      DOD                   Department of Defense
      IJC                   International Security Assistance Force Joint Command
      MOD                   Ministry of Defense
      MSF                   Mobile Strike Force
      MSFV                  Mobile Strike Force Vehicle

      NTM-A                 NATO Training Mission-Afghanistan
      PdM-ATV               Product Manager for Allied Tactical Vehicles
      Textron               Textron Marine & Land Systems




SIGAR 14-85-AR/Mobile Strike Force Vehicles                                         Page ii
A key objective of coalition efforts in Afghanistan is to bolster the Afghan government’s capacity to provide for
its own security by equipping and training the Afghan National Security Forces, which consist of the Afghan
National Army (ANA) and the Afghan National Police. As of April 2014, Congress appropriated $57.33 billion for
the Afghanistan Security Forces Fund to equip, train, base, and sustain Afghan military and police. The
Combined Security Transition Command-Afghanistan Ministerial Advisory Group (CSTC-A) in Kabul, Afghanistan,
is the Department of Defense (DOD) entity responsible for planning, programming, and implementing efforts to
equip and train the ANA. In addition, the NATO Training Mission–Afghanistan (NTM-A) conducts training and
capacity building in coordination with CSTC-A.1

To improve the ANA’s effectiveness, NTM-A/CSTC-A determined that the ANA should have a Mobile Strike Force
(MSF) equipped with vehicles that have a high-survivability and quick-reaction capability to navigate in both
rugged terrain and urban environments. According to its concept of operations, the MSF’s mission is to provide
a mechanized infantry force capable of the full range of tactical actions that is rapidly deployable at the kandak
level, with integral firepower, protection, and mobility support, to reinforce formation operations.2 After a review
process and market research involving multiple DOD components, the Textron Mobile Strike Force Vehicle
(MSFV) was identified as the only vehicle that could meet the ANA’s operational capability and meet CSTC-A
and ANA requirements including the need for delivery to begin by December 2012. In 2011, Army Contracting
Command-Warren (ACC-WRN) awarded the first of two contracts, together valued at $661.3 million, to Textron
Marine & Land Systems (Textron), a U.S. firm, to produce 634 MSFVs and provide spare parts, maintenance,
and training—616 MSFVs were produced to mission capable standards and 18 were test vehicles. Of the 18
test vehicles, 7 were later refurbished to be mission capable. Thus, the ANA is expected to receive 623 MSFVs.
The MSFVs would be distributed to two brigades—the 1st MSF Brigade, headquartered in Kabul with an
authorized strength of four kandaks, and the 2nd MSF Brigade, headquartered in Kandahar with an authorized
strength of three kandaks. As of March 2014, more than 400 MSFVs had been delivered to the ANA and, as of
April 2014, the ANA had fielded both brigades and four of the seven kandaks that would be receiving MSFVs.3

The objectives of this audit were to (1) determine the extent to which Textron has met its contractual
obligations to produce, deliver, train, and provide field support for the ANA MSFVs; (2) evaluate the
effectiveness of U.S. government oversight in the procurement, delivery, training, and maintenance of MSFVs
for the ANA; and (3) determine the extent to which the ANA has the capacity to operate and maintain its current
and planned fleet of MSFVs.

To accomplish these objectives, we obtained data and met with officials from NTM-A, CSTC-A, ACC-WRN, the
Product Manager for Allied Tactical Vehicles (PdM-ATV)—a U.S. Army group of acquisition personnel responsible
for the life cycle management of tactical vehicle fleets—Textron, the ANA’s MSF, and the Afghan Ministry of
Defense (MOD). We also reviewed relevant MSFV receiving and transfer documents, and analyzed the two
contracts requiring Textron to provide vehicles, spare parts, maintenance, and training. We conducted our work
from July 2013 through May 2014 in Washington, D.C., and at coalition and ANA sites in Kabul, Helmand,
Kandahar, and Zabul provinces, Afghanistan, in accordance with generally accepted government auditing
standards. Appendix I contains a more detailed discussion of our scope and methodology.




1Between November 2009 and October 2013, NTM-A/CSTC-A was a single command with CSTC-A representing the U.S.
component, and NTM-A representing the coalition component. In October 2013, NTM-A/CSTC-A was divided into two
separate commands: NTM-A and CSTC-A. For purposes of this report, we refer to actions taken by the previous single
command as NTM-A/CSTC-A. For actions following the split, we use the individual command as appropriate.
2   Kandak is an ANA unit similar in size to a U.S. battalion, or approximately 700 soldiers.
3 The MSF will eventually have an eighth kandak for its Special Operaton Forces. However, because the specific details of
how these forces operate are classified and the special operations kandak has not yet been fielded, this kandak was not
included in the scope of our review.

SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                                         Page 1
BACKGROUND

In September 2007, CSTC-A identified a need to improve the ANA’s ground vehicle capabilities. At the time, the
ANA vehicle fleet included mostly light tactical vehicles—primarily Ford Ranger pickup trucks. In June 2010,
NTM-A/CSTC-A decided to improve the ANA’s capacity by procuring Armored Security Vehicles for the MSF.4 The
command wanted vehicles that could withstand mine blasts and small arms fire, drive long distances over
rough terrain, navigate tight urban environments, overpower and neutralize or destroy a variety of targets at up
to 2,000 meters, and be compatible with U.S. government-furnished equipment currently provided to the ANA.
Recognizing that the ANA would eventually need to operate and maintain these vehicles on its own, NTM-
A/CSTC-A also sought simplicity in design. It submitted these requirements to the Defense Security
Cooperation Agency, which subsequently tasked the Center for Army Analysis to select the best vehicle.5 The
Textron MSFV was identified as the only vehicle that could meet the ANA’s operational capability and be
delivered in the required time.6 Currently, the MSF has three MSFV variants available for its use—one equipped
with an overhead gunner’s protection kit and armed with a 50-caliber machine gun, one equipped with a turret
and armed with a 50-caliber machine gun and a 40-millimeter Mk-19 grenade launcher, and one outfitted as
an ambulance. Photo 1 shows the gunner, turret, and ambulance variants.



Photo 1 - Gunner, Turret, and Ambulance Variants of the MSFV




Source: NTM-A


Mobile Strike Force Contracts
Textron’s two contracts to provide MSFVs, spare parts, maintenance, and training together are valued at
$661.3 million. The first contract, W56HZV-11-C-0114, was awarded on January 21, 2011, and required
Textron to produce 499 MSFVs, including test vehicles and initial production vehicles. This contract also




4   The Mobile Strike Force was originally called the “Quick Reaction Force.” The name was changed in mid-2011.
5 The Defense Security Cooperation Agency is a DOD component that manages security cooperation programs, including
Foreign Military Sales and associated programs. It provides financial and policy guidance for government-to-government
transfers of defense articles, training, and services under a variety of authorities. The Center for Army Analysis is a DOD
component that conducts analysis of Army forces and systems within the context of joint and combined warfighting.
6
  Textron's MSFV is derived from the M1117 Guardian Armored Security Vehicle and Armored Personnel Carrier,
manufactured by Textron for use by the U.S. Army's Military Police Corps and other military police units in Iraq, Bulgaria, and
Columbia. The M1117 serves as a more heavily protected and armed alternative to the M1114 High Mobility Multipurpose
Wheeled Vehicle. The MSFV platform (originally known as the Medium Armored Security Vehicle) differs from the M1117 in
that it has been configured with enhanced survivability capability, giving it improved blast protection to Mine-Resistant,
Ambush-Protected levels. The MSFV also has an extended hull design that provides increased interior space and allows for
additional seating configuration. 

SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                                            Page 2
included provisions for tools, spares parts, maintenance, “de-processing” support,7 and training (to include
training materials and aids). The second contract, W56HZV-13-C-0170, was awarded in February 2013 for the
purchase of 135 additional vehicles. The Defense Contract Management Agency administered the two
contracts with the program office, PdM-ATV providing program management support. Table 1 presents the
contract numbers, the amounts obligated, number of MSFVs provided, and a brief description of the contracts’
scope.

Table 1 - Textron Contracts as of March 17, 2014

Contract Number          Obligated ($      Number of        Scope
                         in millions)a     MSFVs

W56HZV-11-C-0114         $547.9            499                 Phase I (from January 21, 2011 to May 26, 2011) required
                                                                Textron to supply the government with 18 test MSFVs, 41
                                                                MSFVs, and associated personnel, tools, and spare parts.

                                                               Phase II (from May 26, 2011 to December 31, 2014)
                                                                required Textron to deliver 440 MSFVs, training materials,
                                                                tools, spare parts, and field service support personnel in
                                                                Afghanistan for maintenance, de-processing, and training.

W56HZV-13-C-0170         $113.4            135             Purchased additional MSFVs.

Total                    $661.3            634

Source: SIGAR review of Textron contracts W56HZV-11-C-0114 and W56HZV-13-C-0170.
Note: a Dollars rounded to the hundred thousand.

As table 1 shows, contract W56HZV-11-C-0114 is divided into two phases. Phase I began on January 21,
2011, and covered pre-production testing of the MSFV platform and the associated personnel, tools, and spare
parts. During this phase, Textron produced 18 test MSFVs and 41 MSFVs.8 Phase II began on May 26, 2011,
and required Textron to deliver an additional 440 MSFVs. In addition to the production and delivery of MSFVs,
Phase II of the contract requires Textron to provide each of the seven MSF kandaks an initial 60-day supply of
spare parts for preventative maintenance and basic repairs, a comprehensive 1-year supply of spare parts to
repair normal wear and tear, and enough spare parts to repair vehicles damaged in transit to Afghanistan or
during training activities at the Armor Branch School.
Additionally, under the first contract, ACC-WRN exercised options that require Textron to provide tools, training
manuals in Dari and English, and field service representative support in Kabul and at the brigades and
kandaks. The contract specifies that this field service representative support includes vehicle fielding, de-
processing activities, training at the Armor Branch School (including direct training to ANA personnel, “train the
trainer” classes for ANA instructors, and advising support for coalition and ANA instructors), maintenance


7 De-processing activities include receiving and off-loading MSFVs upon arrival in Afghanistan; unpacking, inspecting, and

inventorying MSFV equipment; documenting and repairing damage to the vehicles incurred during the shipment process;
replacing any missing equipment; installing weapons, intercoms, and communications systems (including government
furnished equipment); and performing pre-operational checks of the vehicles before they are transferred to the ANA.
8 W56HZV-11-C-0114 required Textron to produce and submit 18 test vehicles for live fire survivability, performance, and

durability testing. The contract did not require test vehicles be manufactured to “fully mission capable” standards. Fully
mission capable is defined in the contract as "all component and systems operate as designed." Once testing was
completed, the contract required Textron to initially produce 41 MSFVs, which were manufactured to fully mission capable
standards. After the government completed a final inspection of these 41 MSFVs, the vehicles were shipped to Afghanistan
for use by the ANA and the MSFV platform was moved into the mass production stage, represented in the contract as
Phase II. Textron was also required to refurbish seven of the test MSFVs to fully mission capable standards, for use by the
ANA.

SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                                          Page 3
support for MSFVs damaged during training activities, and kandak-level maintenance and maintenance
training.9 Textron is also required to provide weekly status reports to PdM-ATV detailing MSFV de-processing
status. The first contract is currently scheduled to end on December 31, 2014.


Delivery and Acceptance of Vehicles
Textron began delivering vehicles to DOD in May 2011. The Defense Contract Management Agency, the entity
responsible for administering the procurement process, accepted the vehicles on behalf of the U.S.
government using a DD Form 250.10 Once an MSFV passes government inspection at the Defense Contract
Management Agency in Dallas, Texas, the vehicle is sent to Afghanistan where it arrives at the MSFV staging
site in Pol-e-Charki, Afghanistan.
CSTC-A acts as the receiving authority for the MSFVs arriving in Afghanistan and coordinates the paperwork
and vehicle tracking. According to the contract, Textron is responsible for de-processing and preparing the
MSFVs for the ANA. Textron is also responsible for repairing any damage sustained during transit. As each MSF
kandak completes training and begins preparing for deployment, CSTC-A formally transfers custody, title, and
responsibility for that kandak’s vehicles to the ANA. CSTC-A and ANA personnel sign a transfer and receipt
document, MOD Form 9, for each vehicle to acknowledge this official transfer of ownership.11




9 Textron’s main de-processing facility is located across from the Armor Branch School outside of Pol-e-Charki. This facility

is where the contractors receive, inspect, inventory, de-process, and deliver to the ANA the MSFVs, tools, and spare parts
packages contracted by the U.S. government. Textron contractors also have classrooms and repair facilities within the
Armor Branch School, where they conduct field level maintenance classes and repair vehicles damaged during driver
training.
10While ACC-WRN is the contracting office that awarded the contracts, the Defense Contract Management Agency is
responsible for contract administration. The Agency uses DD Form 250─“Material Inspection and Receiving Report”─ to
document the point at which the U.S. government takes title of a particular good, such as a vehicle.
11   The MOD Form 9 documents the formal vehicle transfer from the U.S. government to the Afghan government.

SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                                            Page 4
MSF Structure and Training

While the ANA owns the MSFVs, the MSF has its own organizational structure within the ANA and reports
separately to the MOD. The MSF consists of two brigades—the 1st MSF Brigade in Kabul and 2nd MSF Brigade in
Kandahar. As of April 2014, the 1st MSF Brigade had received one of its four planned kandaks and the 2nd MSF
Brigade had received all three of its planned kandaks (see figure 1). While the MSF kandaks report to brigades
in Kabul and Kandahar, MOD can task them to operate anywhere in the country. With MOD approval, these
kandaks are employed to support the operations of a particular ANA Corps, which control military operations in
                                                                             a particular region. For a MSF
                                                                             kandak to be tasked with a
Figure 1 - MSF Organization and Deployment Status as of April 2014
                                                                             particular mission, a regional Corps
                                                                             coordinates with the appropriate
                                                                             MSF brigade, and then sends a
                                                                             request to MOD Operations for MSF
                                                                             support. MOD Operations either
                                                                             approves or rejects the request and
                                                                             notifies the MSF brigade. If
                                                                             approved, the MSF brigade tasks
                                                                             the MSF kandak to conduct the
                                                                             mission. Each mission has a
                                                                             specified task and a specified
                                                                             duration.
                                                                            According to the MSF concept of
                                                                            operations, the MSF kandaks would
                                                                            receive a total of 406 vehicles, 58
                                                                            for each of the seven MSF
                                                                            kandaks—31 in the turret variant,
                                                                            24 in the gunner variant, and 3 in
                                                                            the ambulance variant. The two
                                                                            MSF brigades headquarters were
                                                                            each allotted 6 MSFVs, for a total of
                                                                            12 vehicles. In addition, there were
                                                                            21 training vehicles, and 56 “float”
                                                                            vehicles for training and to replace
                                                                            vehicles damaged beyond repair
Source: SIGAR review of NTM-A records.
                                                                            during operations.




SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                               Page 5
TEXTRON MET VEHICLE DELIVERY AND INITIAL TRAINING REQUIREMENTS, BUT
LIMITED SECURITY SUPPORT AND SPARE PARTS HINDERED ITS ABILITY TO
CONDUCT FIELD MAINTENANCE AND TRAINING

Textron Met Contractual Obligations to Produce and Deliver MSFVs and Provide
Initial Training
DOD documents showed that as of March 25, 2014,Textron had produced all 634 MSFVs required under its
two contracts with ACC-WRN—616 regular production and 18 test MSFVs—and provided initial training at the
Armor Branch School in accordance with the contract requirements. In addition, Textron had finished
refurbishing 7 of the 18 test MSFVs for use by the ANA in accordance with contract W56HZV-11-C-0114,
modification 23. NTM-A and PdM-ATV officials stated that Textron also met other contractual requirements
such as conducting de-processing and advising activities at the Armor Branch School; providing spare parts,
tools, equipment and weapons installation; maintaining training vehicles; and providing training. The Office of
the Secretary of Defense (Policy) provided us with documentation showing that Textron supplied training
materials in Dari and English. Lastly, PdM-ATV officials gave us 4 months of Textron weekly status reports
covering the period September 9, 2013, to January 12, 2014, showing that Textron continually provided
maintenance, de-processing, and instruction services at the Armor Branch School.
We also visited the Armor Branch School in Pol-e-Charki (just outside Kabul) on October 14, 2013, and January
15, 2014. During these visits, Textron showed us its classroom facilities and the damaged training vehicles it
was repairing. At the de-processing site located across from the school, contractors opened shipping
containers and showed us how they were assembling packages of field tools, sustainment tools, and spare
parts. In addition to speaking with Textron at the Armor Branch School, we interviewed ANA instructors who
have been trained and mentored by Textron. These ANA instructors stated that they had a good working
relationship with the Textron contractors and that Textron’s continued assistance has been greatly
appreciated.


Inability to get to Brigades and Kandaks—Because of Security Concerns—Limited
Textron’s Ability to Fully Conduct Required Field Maintenance and Training
Textron has been unable to provide required maintenance and training services to the brigades and kandaks
due to security concerns. The first contract required Textron to provide three maintenance and training field
support teams to rotate at the seven MSF kandaks expected to be deployed in the field. Textron’s field support
teams need security protection to do their work, and DOD is responsible for providing it. Coalition advisors or
security forces, under the International Security Assistance Force Joint Command (IJC) provide security to
Textron field support teams.
Textron contractor support personnel reside at the same facility as the coalition advisors or security forces and
travel with them on their convoys to the MSF brigade headquarters or kandaks. Once at the MSF brigade
headquarters or kandak, each Textron contractor is supposed to be protected by at least two coalition advisors
or security forces when conducting vehicle maintenance or interacting with small groups of ANA personnel.
When interacting with larger groups of ANA personnel, as when conducting maintenance classes, contractor
personnel are supposed to be protected by five coalition advisors or security forces.
Textron’s contract does not specify how often contractors should visit the brigades and kandaks for
maintenance and training. However, Textron’s MSFV project manager stated that its field service
representatives should provide these services 6 days a week to prevent vehicles from falling into disrepair, and
to provide MSF mechanics the greatest opportunity to retain and improve their skills. In January 2014, NTM-A
and Textron officials acknowledged that two of the four kandaks that have been deployed to date were not


SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                               Page 6
receiving adequate levels of maintenance and training because of limited security support. Specifically, the 2nd
MSF Kandak based in Qalat experienced a 3-month period in which coalition advisors were not available to
provide security support to Textron. Consequently, Textron could not conduct field maintenance and training.
Even after coalition advisors arrived, the kandak went several more months when it received Textron-provided
maintenance and training only once every 1 to 2 weeks due to the limited availability of coalition security
forces. Similarly, at the 3rd MSF Kandak based in Shorabak, Textron did not receive the necessary security
support from the coalition advisors or security forces, which limited its ability to conduct maintenance and
training. According to the Textron program manager, the situation at 3rd MSF Kandak improved when a new
team of coalition advisors arrived in 2013 and made supporting the contractors a higher priority.
According to coalition commanders advising ANA brigades and kandaks, they are not able to provide the level
of support necessary for Textron to fulfill all of its duties to MSF brigades and kandaks because they have a
limited number of coalition advisors and security forces. According to these commanders, most teams
assigned at either the ANA brigade or kandak level have an average of 18 members to provide security for
Textron, amongst other duties. They also stated that the primary role of the coalition advisors is to advise and
assist Afghan security forces and not to provide security support for contractors. While the advisors say that
they generally can bring contractor personnel in their convoys to the MSF brigade headquarters and kandaks,
they do not have the resources to provide constant security for contractor personnel.


Spare Parts Delivery Delays Limited Textron’s Ability to Conduct Field Maintenance
and Training
Initial delays in ordering MSFV spare parts, delivery challenges, and an immature ANA logistics system limited
Textron’s ability to conduct MSFV field maintenance and ANA maintenance training for the first four MSF
kandaks that received MSFVs. According to coalition and Textron personnel, as of January 2014, all four
deployed kandaks had received an initial 60-day complement of spare parts upon completing training at the
Armor Branch School. However, contractor representatives stated that some of the 60-day packages lacked
the full planned complement of spare parts due to problems importing some spare parts into Afghanistan.
Moreover, the standard 60-day initial spare parts package contains a limited supply of the items and
components needed for routine maintenance and basic repairs. Other key items and components, such as
replacement engines and drive shafts, are only included in the comprehensive, 1-year spare parts packages
sent through the ANA logistics system. According to coalition advisors, after an MSF kandak deploys and
begins to conduct missions, spare parts from the 1-year supply become necessary for repairing battle damage
as well as operational wear and tear. During our fieldwork in January 2014, only the 3rd MSF Kandak in
Helmand had received any additional spare parts from the brigade’s comprehensive 1-year supply. The
remaining three kandaks had not received any additional spare parts from their brigades, despite the fact that
some of the kandaks had long since exhausted their initial 60-day supply.12 For example, the 2nd MSF Kandak
was without spare parts for the 9 months it received coalition advisor and contractor support, and, according to
coalition advisors, the lack of spare parts resulted in a steady deterioration of the 2nd MSF Kandak’s ability to
conduct missions. We requested information on MSFV operational readiness rates, but this information is not
maintained by the brigades, kandaks or NTM-A.
Under the first contract (W56HZV-11-C-0114), ACC-WRN is responsible for ordering an initial 60-day and also
the comprehensive 1-year supply of spare parts for the MSF. According to Textron and PdM-ATV officials, under
normal circumstances it takes approximately 1 year to manufacture and deliver large quantities of spare parts
for the MSFV. However, due to shortfalls in contract funding, ACC-WRN was not able to order these spare parts
until March 2012, only 3 months before the 1st MSF Kandak was fielded. According to PdM-ATV, even if the


12At the time of our fieldwork in January 2014, the 4th MSF Kandak had just completed its training at the Armor Branch
School and was in the process of deploying to Kandahar, so it did not yet need more than its initial 60-day supply of spare
parts. According to NTM-A, the 2nd MSF Brigade has since received its one year supply of spare parts, and should be able to
push these parts down to the 1st, 2nd, and 4th MSF Kandaks.

SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                                         Page 7
parts were ordered on time, delivery issues in getting parts into Afghanistan as well as ANA logistics
distribution challenges added additional delays outside of DOD’s control. For example, shipments going
through Pakistan experienced delays due to the closure of the Pakistan ground transportation corridor. In
November 2013, DOD reported that most of the blocked cargo from last year’s Pakistan ground transportation
corridor had arrived in Afghanistan.13 However, in April 2014, the NTM-A MSF program manager stated that
containers of spare parts as well as MSFVs continued to face significant delays going through Pakistan. As of
March 2014, 76 containers containing MSF spare parts were stuck in Pakistan. Furthermore, according to
coalition advisors, once parts arrive in Afghanistan, the immature ANA logistics system faces numerous
challenges, such as the effective ordering and processing of spare parts, which limits the ANA’s ability to
distribute parts to brigades and kandaks, including the MSF.


DOD CAN ACCOUNT FOR ALL MSFVS, BUT ITS OVERSIGHT OF TEXTRON’S
SUPPORT TO FIELDED MSFVS IS LIMITED

DOD Can Fully Account for All MSFVs
As of March 25, 2014, DOD was able to account for all MSFVs produced and their status. Once Textron
produces the MSFVs, DOD takes ownership when the Defense Contract Management Agency accepts delivery
using a DD Form 250. Our analysis of these forms shows that, as of March 25, 2014, Textron had delivered,
and the Defense Contract Management Agency had accepted, all 634 MSFVs Textron was contracted to
provide—623 that will be provided to the ANA and 11 that will remain in DOD’s possession as test vehicles. For
each form, we checked the shipment number, shipment date, vehicle serial number, contract number line
item, and comments made by personnel accepting the vehicles.
In addition, we found that CSTC-A could account for the status of the 623 MSFVs being provided to the ANA. As
of March 25, 2014, CSTC-A had transferred 419 of the planned 623 MSFVs to the ANA and was able to
provide us with MOD Form 9s for all transferred vehicles.14 MOD Form 9s record the transfer of ownership from
CSTC-A to the ANA. The 204 vehicles that are still in DOD’s possession before being transferred to the ANA
were either de-processing in Afghanistan, being used for training, in transit to Afghanistan, awaiting
transportation in the United States, or were refurbished test vehicles.


DOD Oversight of Support to Fielded MSFVs Is Limited
Although ACC-WRN assigned contracting officer’s representatives (COR) and PdM-ATV provided assistance to
oversee Textron’s performance in Afghanistan,15 DOD has limited oversight of Textron at ANA brigades and
kandaks. From April 2011 through May 2014, 11 PdM-ATV personnel, consisting of CORs, associates, and one
contractor, performed oversight of Textron’s activities in Afghanistan. Although there was some overlap among
these individuals, for the most part there was only one of these individuals in Afghanistan at any given time. At


13   U.S. Department of Defense, Report on Progress Toward Security and Stability in Afghanistan, November 2013.
14 As noted above, 634 is the total number of MSFVs ACC-WRN contracted with Textron to produce and deliver. The

concept of operations calls for 623 MSFVs to be transferred to the ANA. The remaining 11 vehicles are test vehicles that
will not undergo refurbishment and will not be provided to the ANA. This brings the total number of MSFVs currently in
DOD’s possession to 215 vehicles—204 that will be transferred to the ANA and 11 test vehicles that will remain in DOD’s
possession.
15 While ACC-WRN is the implementer of the MSFV contract, the COR within PdM-ATV oversees Textron’s performance. To

support the contractor oversight process, PdM-ATV deployed assistant CORs to Afghanistan who provided information
regarding contractor performance to the COR who was located at the PdM-ATV in the United States. The COR can
recommend contract actions to ACC-WRN but cannot award, agree to, or sign any agreements, commitments, or
modifications that involve price, quantity, quality, delivery schedule, or other terms and conditions. Only the contracting
officer at ACC-WRN can implement such contract actions.

SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                                           Page 8
the time of our fieldwork in October 2013 and January 2014, for example, only one person in Afghanistan was
assigned oversight functions at the active MSF sites—the Armor Branch School, 1st and 2nd MSF Brigade
headquarters, and the four MSF kandak locations—throughout Afghanistan. According to the COR designation
letter, the COR’s primary responsibilities are to monitor Textron’s performance and maintain documentary
evidence of oversight. The COR must verify that Textron fulfills all the technical requirements of the contract
and related work orders. If, during monitoring activities, the COR observes incidents of faulty work, work delays,
or other problems with contractor performance, the COR must record and report the issue to both Textron and
the contracting officer. The COR designation letter also stipulates that the COR will “perform, or cause to be
performed, inspections” to verify that these issues have been rectified. However, the COR was not always
located in Afghanistan. According to PdM-ATV, from October 2011 to January 2012, from June 2012 to March
2013, and from July 2013 to April 2014, the COR assigned to the program was located outside of Afghanistan.
The Defense Contingency COR Handbook recommends that multiple CORs be designated when the contract
requires several functions to be performed across multiple locations. Although PdM-ATV provided an associate
to assist the COR in oversight responsibilities, this individual was not formally tasked or given the authorities of
a COR. Furthermore, most of the oversight was conducted in Kabul with limited visits to the brigades and
kandaks. For example, the most recent PdM-ATV associate arrived in Afghanistan in January 2014, but, as of
April 2014, had been unable to reach any sites outside of Kabul to conduct direct oversight. The associate
attempted to travel to the 2nd MSF Brigade on multiple occasions, but the flights were cancelled for unknown
reasons. According to NTM-A officials and advisory team commanders, the associate has spent most of the
time at the de-processing and training sites in and around Kabul, where a majority of the contractor’s work
takes place. According to NTM-A officials, past associates rarely conducted site inspections at other sites, even
though the 2nd MSF Kandak has been deployed to Zabul province since November 2012, the 3rd MSF Kandak
to Helmand province since April 2013, the 2nd MSF Brigade to Kandahar province since April 2013, and the 4th
MSF Kandak to Kandahar province since January 2014. On April 2, 2014, ACC-WRN reported that a new COR
was assigned to Kabul. While this provides formal direct oversight of activities in Kabul, it does not ensure that
oversight will be provided at the brigades and kandaks.
PdM-ATV officials told us they have relied on reporting from the coalition advisors and Textron—the entity they
are supposed to be monitoring—to help them conduct technical oversight and administer the contracts outside
of Kabul. The PdM-ATV associate stated that coalition advisors often call and relay their concerns when
problems with the MSFV arise. The associate also told us that the coalition advisory teams sometimes report
problems up their chains of command, but when this occurs, the COR does not learn of the problems until up
to a week later. To keep all stakeholders aware of the contractor’s work, the associate holds teleconferences
every other week with PdM-ATV, CSTC-A, and other officials. The advisory team commanders also told us that
they frequently talk with the associate, but that they prefer more on-the-ground oversight. In addition to the
teleconference, the COR prepares and submits a monthly report of contractor performance to ACC-WRN, as
required by the COR appointment letter.


ANA’S CAPACITY TO INDEPENDENTLY OPERATE AND MAINTAIN THE MOBILE
STRIKE FORCE VEHICLES IS AFFECTED BY A LACK OF TRAINING AND
PROBLEMS WITH OBTAINING SPARE PARTS

MSF Crewmembers Lack Comprehensive Training
MSF crewmembers receive 8 weeks of initial MSFV operator training at the Armor Branch School. Although the
courses at the school cover the basic technical elements required to operate the MSFV, each MSF
crewmember is trained to be proficient in only one of the three positions—driver, gunner, and vehicle
commander—considered critical to the full operation of the MSFV. For example, any MSFV crewmember trained
as a driver cannot necessarily operate as a gunner or vice versa. Therefore, if a MSF crew loses any of its three


SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                                  Page 9
crewmembers, the remaining members may not be able to operate the vehicle at its full capability until that
crewmember is replaced. At the 3rd MSF Kandak, coalition advisors created their own cross-training for the
kandak’s drivers, gunners, and vehicles commanders to remedy this situation. It is unclear, however, whether
other kandaks will create a similar training program.
Adding to the risk for MSF operations, replacement crewmembers at deployed kandaks may not receive any
training in MSFV operations. ANA soldiers selected to replace MSF crewmembers lost to attrition are often
selected from infantry units and lack any MSFV experience. While the MSF brigade and kandaks in the Kabul
vicinity can send individuals to the Armor Branch School, this is less feasible for the brigade and kandaks
located away from Kabul, such as the 2nd MSF Kandak in Zabul province (southeastern Afghanistan) and the
3rd MSF Kandak in Helmand province (southwestern Afghanistan). For example, during our fieldwork in January
2014, coalition advisors at the 3rd MSF Kandak in Kandahar stated that most of the kandak’s replacements
did not have any training, resulting in lower mission capable rates for the kandak. The 3rd MSF coalition
advisors worked with 2nd Brigade advisors to create a training program to address this and other issues, which
helped increase the kandak’s mission capability rate. However, there are no similar programs at other
kandaks. We requested information on MSF attrition and operational readiness, but this information is not
maintained by the brigades, kandaks, or NTM-A.


Supplying MSF Spare Parts Continues To Be a Challenge
Difficulties in distributing parts through the ANA logistics system raise concerns about the ANA’s ability to
sustain the MSFV. As previously noted, MSF brigades and kandaks faced delays in receiving their full
complement of spare parts with only one of the three kandaks receiving parts after exhausting its 60-day
supply of initial spare parts. Textron conducts de-processing, sorting, and delivery to the ANA for MSFV spare
parts. Textron field service representatives receive spare parts at their de-processing facility near Pol-e-Charki.
Textron then organizes and inventories the spare parts before they are sent to the two MSF brigades, which in
turn are responsible for the final distribution of spare parts, on an as needed basis, to their respective
kandaks.
SIGAR and other oversight agencies have previously reported on concerns regarding the ANA logistics system.
Specifically, in October 2013, we issued a report focusing on the ANA’s limited ability to manage and track
vehicle spare parts.16 The DOD Inspector General also issued a report in December 2011 highlighting
significant vulnerabilities and weaknesses in the ANA logistical system, including the challenge of establishing
a more effective system of oversight with respect to ANA equipment, supplies, and installations.17
Even with coalition and Textron support, supplying MSFV spare parts is a challenge. According to the PdM-ATV,
the MSF faces challenges in ordering spare parts through the ANA’s Central Supply Depot. A simple parts
request requires multiple approvals, which creates administrative backlogs. In addition, the ANA relies on
paper records and suffers from low literacy, further complicating the process of ordering spare parts.
According to an advisory team commander, between November 2013 and late January 2014, personnel from
the Central Supply Depot held up a large shipment of MSFV parts for the 2nd MSF Brigade in order to conduct
an inventory, despite the parts already having been inventoried by Textron upon arrival in Afghanistan.
According to the commander, the parts remained held up by Central Supply Depot personnel even after a
senior ANA official issued an order in late November 2013 authorizing a special convoy to deliver the parts.
The parts were released in late January 2014 only after direct involvement from the Commanding General,
NTM-A.



16SIGAR Audit 10-11, Afghan National Army: Combined Security Transition Command-Afghanistan Lacks Key Information
on Inventory in Stock and Requirements for Vehicle Spare Parts, October 16, 2013.
17 Department of Defense Inspector General Report No. DODIG-2012-028, Assessment of U.S. Government and Coalition

Efforts to Develop the Logistics Sustainment Capability of the Afghan National Army, December 9, 2011.

SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                                 Page 10
Similarly, MSF kandaks rely on coalition advisor support to process orders for spare parts. For example,
advisors with the 2nd MSF Kandak scanned spare parts orders and sent them to an advisor at the Central
Supply Depot to provide to the ANA rather than rely on hand delivery by the ANA. The first Textron MSFV
contract, which includes the Textron logistics support, is scheduled to end in December 2014. The pending
drawdown of coalition troops in the same timeframe means that neither coalition forces nor Textron will have
the personnel or resources to continue to provide the level of logistics support services that the MSF has relied
upon to date. Instead, the MSF will rely on the ANA logistics system for ordering and receiving spare parts.


CONCLUSION

Textron performed well under its contract to produce and deliver MSFVs for the ANA, and to provide the MSFV’s
crewmembers—driver, gunner, and vehicle commander—the required initial training at the Armor Branch
School in Kabul. Although Textron is also being paid to provide field training and maintenance, it has not been
able do so through no fault of its own. DOD has not had personnel available to provide the security as called
for under the contract when Textron is conducting field training and maintenance. The absence of such training
and maintenance will eventually impact the MSF units’ ability to operate their vehicles at optimal levels.
Similarly, DOD has not had adequate oversight personnel available to verify that Textron is adhering to contract
requirements when conducting work at ANA brigades and kandaks.
Compounding this situation are problems with the lack of crewmember cross-training and the lack of spare
parts availability. First, since each crewmember is only trained in one of the three MSFV positions, the loss of
any one crewmember could render the vehicle incapable of conducting missions. In addition, replacement
crewmembers are taken from field units with no MSFV training and, particularly for those units away from the
Armor Branch School in Kabul, the individuals will likely not get needed training. Second, the ANA’s spare parts
logistics system remains weak and, as a result, MSFV spare parts are not getting to the MSF brigades and
kandaks. To their credit, coalition forces are providing some field training and securing spare parts when they
can, but their assistance will be ending soon. This instance of the U.S. purchasing equipment for the Afghan
military and police, which they struggle to sustain, is not new. In this case, the $661.3 million spent acquiring
the MSFVs for the Afghans would not be optimized unless the MSFV crewmembers receive full and continuous
training and the MSF brigades and kandaks receive adequate levels of spare parts to keep their vehicles
mission capable.




SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                              Page 11
RECOMMENDATIONS

To ensure that Textron is adequately supported in its implementation of the MSFV contracts and that
appropriate contract oversight is provided, SIGAR recommends that the Executive Director, ACC-WRN, and the
Commander, IJC:
    1. Review the requirements for contractor support at the MSF brigades and kandaks, taking into account
       the level of security support available, and modify the contract to reflect realistic capabilities for
       oversight, and determine which actions are needed to conduct proper oversight of maintenance and
       training; and
    2. Assign oversight responsibilities to government personnel working with Textron at the brigades and
       kandaks and have them report to the COR.
To improve the long-term sustainability of MSF operations, we recommend that the Commanding General,
NTM-A:
    3. Work with the ANA to provide post-Armor Branch School operator training.


AGENCY COMMENTS

Army Materiel Command and U.S. Forces-Afghanistan provided written comments on a draft of this report.
Army Materiel Command’s comments—which include comments from ACC-WRN—and U.S. Forces-Afghanistan’s
comments—which include comments from CSTC-A and NTM-A—are incorporated in the report, as appropriate.
These comments, along with our responses, are also reproduced in appendices II and III, respectively. In
addition, PdM-ATV submitted informal technical comments which we incorporated in the report, as appropriate.
Although NTM-A did not comment on the first recommendation to review requirements for contractor support
at the MSF brigades and kandaks, ACC-WRN and CSTC-A concurred with it. In its comments, ACC-WRN stated
that it will adjust the contract as necessary by December 31, 2014. In its comments, CSTC-A noted changes to
the contract’s language to ensure appropriate security and oversight and stated that the 4th MSF Kandak in
Kandahar is currently receiving its full support under the contract.
ACC-WRN and CSTC-A also concurred with the second recommendation to assign oversight responsibilities to
government personnel working with Textron at the brigades and kandaks and have them report to the COR. In
its comments, ACC-WRN stated that it will assign additional CORs or government monitors to oversee Textron’s
work at the brigades and kandaks by December 31, 2014. CSTC-A stated that it will recommend that PdM-ATV
assign assistant CORs to the 2nd MSF Kandak in Qalat and 3rd MSF Kandak in Shorabak to support its COR or
associate in Kabul. However, NTM-A did not concur with the second recommendation, stating that it could not
justify permanently assigning DOD personnel to the MSF brigade and kandak levels where, for example, at the
kandak level there are as few as three to five contractor personnel. NTM-A further stated that because the
number of MSF sites will be decreasing, the COR or associate in Kabul will have more time to visit the MSF
brigades and kandaks on a regular basis and provide sufficient oversight. However, we did not recommend
assigning a permanent individual to solely provide oversight of Textron’s contractors at the MSF brigades and
kandaks. As we noted in the draft report, coalition advisors already interact with Textron contractors, and,
therefore, are in a position to provide oversight. In addition, while the COR or PdM-ATV’s forward associate may
now have additional time to conduct oversight at the MSF brigades and kandaks, this does not mean they will
be able to access these locations on a regular basis and provide sufficient oversight. As we noted in our draft
report, the PdM-ATV associate in Kabul made multiple attempts to visit the 2nd MSF Brigade in Kandahar, but
was unable to do so due to flight cancellations.
NTM-A concurred with the third recommendation to work with the ANA to provide post-Armor Branch School
operator training, and commented that it is developing post-Armor Branch School operator training to provide

SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                             Page 12
new recruits MSFV-specific training before they join an MSF unit. NTM-A added that the Armor Branch School
will form a Quality Assurance Cell responsible for developing common standards and assessing MSF units
against those standards.




SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                          Page 13
APPENDIX I - SCOPE AND METHODOLOGY

This audit focuses on the procurement, training, operation, and maintenance of Mobile Strike Force Vehicles
(MSFV) for the Afghan National Army (ANA). The objectives of this audit were to (1) determine the extent to
which Textron has met its contractual obligations to produce, deliver, train and provide field support for the
ANA MSFVs; (2) evaluate the effectiveness of U.S. government oversight in the procurement, delivery, training
and maintenance of MSFVs for the ANA; and (3) determine the extent to which the ANA has the capacity to
operate and maintain its current and planned fleet of MSFVs. To accomplish these objectives, we obtained
data from and met with officials from the NATO Training Mission–Afghanistan (NTM-A), the Combined Security
Transition Command–Afghanistan (CSTC-A), other Department of Defense (DOD) components, Textron, the
ANA’s Mobile Strike Force (MSF), and Afghan Ministry of Defense (MOD). We also reviewed relevant MSFV
receiving and transfer documents, and analyzed the two contracts requiring Textron to provide vehicles, spare
parts, maintenance, and training.
To determine the extent to which Textron met its contractual obligations to produce, deliver, and provide field
support for the ANA’s MSFVs, we reviewed two contracts awarded to Textron. We reviewed DD Form 250
receiving forms to verify delivery of vehicles from Textron to the U.S. government, and MOD Form 9 transfer
forms to verify the transfer of vehicles from CSTC-A to the ANA. Additionally, we analyzed data from Textron’s
weekly vehicle de-processing reports from September 1, 2013 through January 12, 2014, to confirm the arrival
of MSFVs in Afghanistan that had not yet been transferred to the ANA.
We also reviewed Textron’s MSFV course materials for classes taught at the Armor Branch School. We
conducted site visits to Textron’s field level maintenance classroom and main de-processing facilities at Pol-e-
Charki on October 14, 2013 and January 15, 2014. During our field visits, we toured the MSF brigades and
kandaks and spoke with Textron contractor personnel, NTM-A and CSTC-A officials, and the Product Manager
for Allied Tactical Vehicles (PdM-ATV)—a U.S. Army group of acquisition personnel responsible for the life cycle
management of tactical vehicle fleets. We also interviewed members of the advisory teams attached to the
Armor Branch School, members of the advisory teams attached to the MSF brigades and kandaks, ANA
students at the Armor Branch School, ANA MSFV instructors at the Armor Branch School, and ANA
commanders for the 1st MSF Brigade, 2nd MSF Brigade, 2nd MSF Kandak, and 3rd MSF Kandak.
To evaluate the effectiveness of U.S. government oversight of the MSF program, we reviewed contract
performance work statements, quality assurance surveillance plans, and weekly status reports by Textron’s
lead field service representative. We interviewed officials from PdM-ATV, NTM-A, CSTC-A, and Textron to obtain
a greater understanding of the processes in place to effectively provide program oversight. We also interviewed
members of the advisory teams attached to the MSF brigades and kandaks to obtain their views on whether
sufficient U.S. government oversight existed at the brigades and kandaks.
To determine the extent to which the ANA had the capacity to operate and maintain its current and planned
fleet of MSFVs, we reviewed the NTM-A concept of operations for the MSF. We interviewed U.S. and coalition
officials from PdM-ATV, NTM-A, CSTC-A, and International Security Assistance Force Joint Command (IJC), about
the roles they played in developing and adapting the concept. To gain an understanding of the MSF operations
in the field and the performance of the force, we interviewed Textron field service representatives, and
members of the advisory teams attached to the MSF brigades and kandaks, and ANA commanders for the 1st
MSF Brigade, 2nd MSF Brigade, 2nd MSF Kandak, and 3rd MSF Kandak.
We did not use or rely on computer-processed data for the purpose of the audit objectives, and, therefore, did
not assess its reliability. With respect to assessing internal controls, we analyzed agency internal control
processes including processes to oversee contractor operations to accomplish our first objective of
determining whether Textron and CSTC-A could account for all vehicles produced under the contract. We also
reviewed the contracting officer’s representative appointment letter. We interviewed officials at PdM-ATV, NTM-
A, CSTC-A, IJC, and Textron. We reviewed receiving and transfer documents as well as contractor-provided
weekly status reports.


SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                              Page 14
We conducted our work from July 2013 through May 2014 in Washington, D.C., and at coalition and ANA sites
in Kabul, Helmand, Kandahar, and Zabul provinces, Afghanistan, in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. SIGAR conducted this audit under the authority of Public Law No.
110-181, as amended; the Inspector General Act of 1978, as amended; and in accordance with generally
accepted government auditing standards.




SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                          Page 15
APPENDIX II - COMMENTS FROM ARMY MATERIEL COMMAND




SIGAR 14-85-AR/Mobile Strike Force Vehicles         Page 16
SIGAR 14-85-AR/Mobile Strike Force Vehicles   Page 17
SIGAR 14-85-AR/Mobile Strike Force Vehicles   Page 18
SIGAR 14-85-AR/Mobile Strike Force Vehicles   Page 19
APPENDIX III - COMMENTS FROM U.S. FORCES–AFGHANISTAN

.




SIGAR 14-85-AR/Mobile Strike Force Vehicles            Page 20
                                                        HEADQUART'ERS
                                      COMBINiEDSECURITYlRANS(TlONCON.MAND-AFGHANISTAN
                                                 MINISTERIAL/!£NISORY GROlA'
                                                     l<ABU1... llFGHAMSTAN
                                                         M'O 1'E. 09356

                RS'lY iO
                ATTamONOF
            CSTC-A                                                                                       24JUN2014


            MEMORANDUM TI-IRU           United States Forces - Af@hanistan (C.JlG). APO AE 09356
                                        United States Central Command (CCIG). :vtacDill AFB, FL 3362 l

            FOR: Special Inspector General fur Atgbanistan Reconstruction_ 2530 Crystal Drive. Arlington. VA
            22W1-3940

            SUBJECT: CSTC-A Draft Response to SlGAR Draft Report: -Afgban Mobile Strike Force V chicles:
            Contractor Met Requirements. But l.ong-Tenn Operation and Maintenance Remain a Concern" (SIGAR
            14-X Audil Report).

            REFERENCE: Draft Report. dated July 2014, Special lnspectorGeneral fuT Afghanistan Reconstruction
            (SfGAR l4-X Audit Report).


            I. The puqiose of this memorandum is to provide responses to recommendations made in the SlGAR 14-
            X Audit Report.

            2. CSTC-A appreciates SIGAKs concerns with the long term operation and maintenance of the Mobile
            Strike Force Vehicle (MSFV) contract. ContractDT support remains a priority of CSTC-A. while the
            oversight of mainrenanee and training at the brigade and kandak levels continue to be an invaluable as.set
            to the safety of the MSFV Field Service Representlltivcs (FSR). To ensure proper security is provided.
            CSTC-A has taken :>reps to dedicate increased oversight by guvemment employees, as well as the
            Contr.teting Officer Representative (COR) at the forward locations- Furthermore. the MSFV support will
            transition tQ two major looations in Kandahar and Kabul, providing the COR a better opportunity of
            oversight from a Coalition f'orce secured looation.

            3. SIGAR has requested responses to three recommendations made in the draft report. CSTC-A has
            provided responses to recommendations one and two-

            4. Point of contact fur this action is CPT Todd R. Williams at._!_ _ _ _ ___.!or via e-mail ar




                                                                     /·~~
                                                                  K/v(NR.W~L
                                                                  Major General.  rlSLArmy
                                                                  Commanding General

            Enclosure:
            CSTC-A Draft Report Response




SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                                              Page 21
SIGAR 14-85-AR/Mobile Strike Force Vehicles   Page 22
SIGAR 14-85-AR/Mobile Strike Force Vehicles   Page 23
                                  SIGAR’s Response to Comments from DOD

1. We are not recommending assigning a permanent individual to solely provide oversight of Textron’s
   contractors at the MSF brigades and kandaks. As we note in the report, coalition advisors already interact
   with Textron contractors and are in a position to provide oversight. In addition, while the contracting
   officer’s representative or the Product Manager for Allied Tactical Vehicles’ forward associate may now
   have additional time to conduct oversight at the MSF brigades and kandaks, this does not mean that they
   will be able to access these locations on a regular basis and provide sufficient oversight. As we note in our
   report, the Product Manager for Allied Tactical Vehicles’ associate in Kabul made multiple attempts to visit
   the 2nd MSF Brigade in Kandahar, but was unable to do so due to flight cancellations. 




SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                             Page 24
APPENDIX IV - ACKNOWLEDGMENTS

Daniel Chen, Senior Program Manager
Parker S. Laite III, Senior Program Analyst
Zachary J. Rosenfeld, Program Analyst
Mia E. Bonarski, Methodologist
Lieutenant General John F. Goodman (U.S. Marine Corps, retired), Special Advisor to the Inspector General




SIGAR 14-85-AR/Mobile Strike Force Vehicles                                                           Page 25
                                      This audit report was conducted
                                      under project code SIGAR-085A.




SIGAR 14-85-AR/Mobile Strike Force Vehicles                             Page 26
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
